APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
APPENDIX A:
Unpublished Opinion of
The United States Court of Appeals
For the Eighth Circuit
entered August 5, 2020 ....................... 1a
APPENDIX B:
Judgment of
The United States District Court
For the Western District of Arkansas
entered August 27, 2019 ..................... 4a
APPENDIX C:
2016 U.S. Sentencing Guidelines
Provisions ..................................................... 16a
APPENDIX D:
Defendant’s Amended Sentencing
Memorandum
entered July 18, 2019 ........................ 21a

1a
[ENTERED: August 5, 2020]

United States Court of Appeals
For the Eighth Circuit
No. 19-2979
United States of America
Plaintiff - Appellee
v.
Marcus Broadway
Defendant - Appellant
Appeal from United States District Court for the
Western District of Arkansas - Fayetteville
Submitted: April 15, 2020
Filed: August 5, 2020
[Unpublished]
Before KELLY, WOLLMAN, and STRAS, Circuit
Judges.
PER CURIAM.
Marcus Broadway, who received 100 months in
prison for distributing methamphetamine, see 21 U.S.C.
§ 841(a)(1), appeals his sentence on two grounds. The
first is that the district court1 should not have sentenced
him as a career offender. See U.S.S.G. § 4B1.1(a). The
The Honorable Timothy L. Brooks, United States
District Judge for the Western District of Arkansas.
1

2a
second is that he did not deserve an enhancement for
possessing a dangerous weapon. See id. § 2D1.1(b)(1).
Neither argument entitles him to relief.
The first issue turns on whether Broadway’s
prior convictions of delivery of cocaine and attempted
delivery of cocaine qualify as “controlled substance
offense[s]” under the Sentencing Guidelines. U.S.S.G.
§ 4B1.1(a); see Ark. Code Ann. § 5-64-401(a)(1)(A)(i)
(Supp. 2005); id. § 5-64-422(a) (Supp. 2011). A
“controlled substance offense” includes “distribution,”
U.S.S.G. § 4B1.2(b), which can be accomplished
through “deliver[y],” Ark. Code Ann. § 5-64-101(9); see
id. § 5-64-101(6). The commentary extends the reach
of section 4B1.2(b) to attempted distribution, even
though the provision itself lists only completed acts.
U.S.S.G. § 4B1.2, cmt. n.1. Since 1995, we have
deferred to the commentary, not out of its fidelity to
the Guidelines text, but rather because it is not a
“plainly erroneous reading” of it. United States v.
Mendoza-Figueroa, 65 F.3d 691, 693 (8th Cir. 1995)
(en banc); accord, e.g., United States v. Garcia, 946
F.3d 413, 417 (8th Cir. 2019); United States v. Reid,
887 F.3d 434, 437 (8th Cir. 2018); see also Stinson v.
United States, 508 U.S. 36, 44–45 (1993) (giving
deference to the Guidelines commentary under
Bowles v. Seminole Rock & Sand Co., 325 U.S. 410
(1945), because it is analogous to an agency’s
interpretation of its own regulation).2 For this reason,
We are not in a position to overrule Mendoza-Figueroa,
as Broadway urges us to do, even if there have been some major
developments since 1995. See Kisor v. Wilkie, 139 S. Ct. 2400,
2414 (2019) (emphasizing that Auer/Seminole Rock deference is
triggered only by “genuine[] ambigu[ity]”); United States v.
Booker, 543 U.S. 220, 259–61 (2005) (making the Sentencing
Guidelines advisory).
2

3a
both of Broadway’s convictions count as “controlled
substance offense[s].”
Broadway’s challenge to the two-level
dangerous-weapon enhancement fares no better.3 See
U.S.S.G. § 2D1.1(b)(1). Broadway was arrested in his
girlfriend’s apartment, where law enforcement found
a gun that he acknowledged possessing. The only
dispute is whether the gun was “connected with the
offense.” Id. § 2D1.1, cmt. n.11(A).
The bar is not high. See United States v.
Anderson, 618 F.3d 873, 882 (8th Cir. 2010)
(describing it as “very low”). Unless it is “clearly
improbable that the weapon was connected with the
offense,” including any relevant conduct, the
enhancement applies. U.S.S.G. § 2D1.1, cmt. n.11(A);
see United States v. Ault, 446 F.3d 821, 824 (8th Cir.
2006). Along with the gun, officers recovered over
$2,000 in cash, plastic baggies, and 54.5 grams of
marijuana in the apartment. The presence of these
items allowed the district court to “infer[] that a gun
near the vicinity of drug activity [was] somehow
connected to it.” United States v. Peroceski, 520 F.3d
886, 889 (8th Cir. 2008). In light of this evidence, the
enhancement stands. See United States v. Torres, 409
F.3d 1000, 1003 (8th Cir. 2005) (applying clear-error
review).
We accordingly affirm the judgment of the
district court.
Due to Broadway’s career-offender status, the
enhancement did not affect his Guidelines range. See U.S.S.G.
§ 4B1.1(b)(3). This fact does not make his challenge moot,
however, because of the potential impact on his eligibility for
early release. 28 C.F.R. § 550.55(b)(5)(ii); see United States v.
Torres, 409 F.3d 1000, 1002–03 (8th Cir. 2005).
3

4a
[ENTERED: August 27, 2019]
UNITED STATES DISTRICT COURT
Western District of Arkansas
UNITED STATES
OF AMERICA
v.
MARCUS BROADWAY

)
)
)
)
)
)
)
)
)
)
)

JUDGMENT IN A
CRIMINAL CASE
Case Number:
5:18CR50084-001
USM Number:
15209-010
Wendy R. Howerton
Defendant’s Attorney

THE DEFENDANT:
7
pleaded guilty to count(s) One (1) of the
Indictment on March 26, 2019.
pleaded nolo contendere to count(s)
which was accepted by the court.
was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title &
Section
21 U.S.C.
§ 841(a)(1)

Nature of
Offense

Offense
Count
Ended

Distribute of
01/15/2018
Methamphetamine

1

The defendant is sentenced as provided in
pages 2 through 7 of this judgment. The sentence
is imposed pursuant to the Sentencing Reform Act of
1984.

5a
The defendant has been found not guilty on
count(s)
7Count(s) Two (2) through Four (4)  is 7 are
dismissed on the motion of the United States.
It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must
notify the court and United States attorney of
material changes in economic circumstances.
August 23, 2019
Date of Imposition of Judgment
/s/
Signature of Judge
Honorable Timothy L. Brooks,
U.S. District Judge
Name and Title of Judge
August 27, 2019
Date

6a
DEFENDANT: MARCUS BROADWAY
CASE NUMBER: 5:18CR50084-001
IMPRISONMENT
The defendant is hereby committed to the
custody of the Federal Bureau of Prisons to be
imprisoned for a total term of: one hundred (100)
months.
7The court makes the following recommendations
to the Bureau of Prisons:
1. He shall be permitted to participate in
RDAP or another appropriate drug
treatment program.
2. He shall undergo a mental health
evaluation and be provided any
necessary treatment.
3. The defendant shall be designated to a
BOP facility within his classification
nearest FCI El Reno, Oklahoma.
7The defendant is remanded to the custody of the
United States Marshal.
The defendant shall surrender to the United
States Marshal for this district:
at

 a.m. p.m. on

.

as notified by the United States Marshal.
The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:
before 2 p.m. on

.

as notified by the United States Marshal.
as notified by the Probation or Pretrial Services
Office.

7a
RETURN
I have executed this judgment as follows:
Defendant delivered on
to
at
with a certified copy of this judgment.

,

UNITED STATES MARSHAL
By
DEPUTY UNITED STATES MARSHAL
SUPERVISED RELEASE
Upon release from imprisonment, you will be on
supervised release for a term of: three years.
MANDATORY CONDITIONS
1. You must not commit another federal, state or
local crime.
2. You must not unlawfully possess a controlled
substance.
3. You must refrain from any unlawful use of a
controlled substance. You must submit to one drug
test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as
determined by the court.
The above drug testing condition is
suspended, based on the court’s determination
that you pose a low risk of future substance
abuse. (check if applicable)
4. You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other

8a
statute authorizing a sentence of restitution.
(check if applicable)
5. 7You must cooperate in the collection of DNA as
directed by the probation officer. (check if
applicable)
6. You must comply with the requirements of the
Sex Offender Registration and Notification Act
(34 U.S.C. § 20901, et seq.) as directed by the
probation officer, the Bureau of Prisons, or any
state sex offender registration agency in the
location where you reside, work, are a student,
or were convicted of a qualifying offense. (check
if applicable)
7. You must participate in an approved program
for domestic violence. (check if applicable)
You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on
supervision and identify the minimum tools needed
by probation officers to keep informed, report to the
court about. and bring about improvements in your
conduct and condition.
1. You must report to the probation office in the
federal judicial district where you are authorized
to reside within 72 hours of your release from
imprisonment, unless the probation officer instructs

9a
you to report to a different probation office or
within a different time frame.
2. After initially reporting to the probation office,
you will receive instructions from the court or the
probation officer about how and when you must
report to the probation officer, and you must
report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial
district where you are authorized to reside
without first getting permission from the court or
the probation officer.
4. You must answer truthfully the questions asked
by your probation officer.
5. You must live at a place approved by the
probation officer. If you plan to change where you
live or anything about your living arrangements
(such as the people you live with), you must notify
the probation officer at least 10 days before the
change. If notifying the probation officer in
advance is not possible due to unanticipated
circumstances, you must notify the probation
officer within 72 hours of becoming aware of a
change or expected change.
6. You must allow the probation officer to visit you
at any time at your home or elsewhere, and you
must permit the probation officer to take any
items prohibited by the conditions of your
supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per
week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If you
do not have full-time employment you must try to
find full-time employment, unless the probation

10a
officer excuses you from doing so. If you plan to
change where you work or anything about your
work (such as your position or your job
responsibilities), you must notify the probation
officer at least 10 days before the change. If
notifying the probation officer at least 10 days in
advance is not possible due to unanticipated
circumstances, you must notify the probation
officer within 72 hours of becoming aware of a
change or expected change.
8. You must not communicate or interact with
someone you know is engaged in criminal activity.
If you know someone has been convicted of a
felony, you must not knowingly communicate or
interact with that person without first getting the
permission of the probation officer.
9. If you are arrested or questioned by a law
enforcement officer, you must notify the probation
officer within 72 hours.
10. You must not own, possess, or have access to a
firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose
of causing bodily injury or death to another
person such as nunchakus or tasers).
11. You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.
12. If the probation officer determines that you pose
a risk to another person (including an
organization), the probation officer may require
you to notify the person about the risk and you

11a
must comply with that instruction. The probation
officer may contact the person and confirm that
you have notified the person about the risk.
13. You must follow the instructions of the probation
officer related to the conditions of supervision.
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. For further information regarding these
conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant’s Signature

Date

SPECIAL CONDITIONS OF SUPERVISION
l.

The defendant shall submit to inpatient or
outpatient substance abuse testing, evaluation,
counseling, and/or treatment, as deemed
necessary and as directed by the U.S.
Probation Office.

2.

The defendant shall submit to mental health
evaluation, counseling, and/or treatment, as
deemed necessary and as directed by the U.S.
Probation Office.

3.

The defendant shall submit his person,
residence, place of employment, and vehicle to
a search to be conducted by the U.S. Probation
Office at a reasonable time and in a reasonable
manner based on a reasonable suspicion that
evidence of any violation of conditions of
supervised release might be thereby disclosed.

12a
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment
$ 100.00

JVTA
Assessment*
$ -0-

TOTALS

Fine
$900.00

Restitution
$ -0-

The determination of restitution is deferred until
_________. An Amended Judgment in a Criminal
Case (AO 245C) will be entered after such
determination.
The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority
order or percentage payment column below.
However, pursuant to 18 U.S.C. § 3664(i), all
nonfederal victims must be paid before the United
States is paid.
Name of Payee

Total Loss**

Restitution Ordered

Priority or Percentage

TOTALS

$

$

Restitution amount ordered pursuant to plea
agreement $

13a
The defendant must pay interest on restitution
and a fine of more than $2,500, unless the
restitution or fine is paid in full before the
fifteenth day after the date of the judgment,
pursuant to 18 U.S.C. § 3612(t). All of the
payment options on Sheet 6 may be subject to
penalties for delinquency and default, pursuant to
18 U.S.C. § 3612(g).
7The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
7the interest requirement is waived for the
7 fine
 restitution
the interest requirement for the
 fine
 restitution is modified as follows:
*

Justice for Victims of Trafficking Act of2015, Pub.
L. No. 114-22.

** Findings for the total amount of losses are required
under Chapters 109A, 110, 110A, and 113A of
Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.
SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay,
payment of the total criminal monetary penalties is
due as follows:
A 7Lump sum payment of $ 1,000.00
immediately, balance due

due

not later than ____________, or
7in accordance with  C,  D,  E, or 7 F
below; or

14a
B.  Payment to begin immediately (may be
combined with  C,  D, or  F below); or
C.  Payment in equal ______ (e.g., weekly, monthly,
quarterly) installments of $ _______ over a
period of _______ (e.g., months or years), to
commence _______ (e.g., 30 or 60 days) after the
date of this judgment; or
D.  Payment in equal ______ (e.g., weekly, monthly,
quarterly) installments of $ _______ over a
period of _______ (e.g., months or years), to
commence _______ (e.g., 30 or 60 days) after
release from imprisonment to a term of
supervision; or
E.  Payment during the term of supervised release
will commence within _________ (e.g., 30 or 60
days) after release from imprisonment. The
court will set the payment plan based on an
assessment of the defendant’s ability to pay at
the time; or
F. 7Special instructions regarding the payment of
criminal monetary penalties:
If not paid immediately, any unpaid financial
penalty shall be paid by the defendant during
his term of imprisonment at a rate of up to
50% of the defendant’s available funds, in
accordance with the Inmate Financial
Responsibility Program. During residential
reentry placement, payments will be 10% of the
defendant’s gross monthly income. The
payment of any remaining balance shall
become a condition of supervised release and
shall be paid in monthly installments of $40 or
10% of defendant’s net monthly household

15a
income, whichever is greater, with the entire
balance to be paid in full no later than one
month prior to the end of the period of
supervised release.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during the period
of imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
 Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and
corresponding payee, if appropriate.
 The defendant shall pay the cost of prosecution.
 The defendant shall pay the following court
cost(s):
 The defendant shall forfeit the defendant's
interest in the following property to the United
States:
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest,
(6) community restitution, (7) JVTA assessment,
(8) penalties, and (9) costs, including cost of
prosecution and court costs.

16a
2016 U.S. SENTENCING GUIDELINES
PROVISIONS
§1B1.7. Significance of Commentary.
The Commentary that accompanies the guideline
sections may serve a number of purposes. First, it
may interpret the guideline or explain how it is to be
applied. Failure to follow such commentary could
constitute an incorrect application of the guidelines,
subjecting the sentence to possible reversal on appeal.
See 18 U.S.C. § 3742. Second, the commentary may
suggest circumstances which, in the view of the
Commission, may warrant departure from the
guidelines. Such commentary is to be treated as the
legal equivalent of a policy statement. Finally, the
commentary may provide background information,
including factors considered in promulgating the
guideline or reasons underlying promulgation of the
guideline. As with a policy statement, such
commentary may provide guidance in assessing the
reasonableness of any departure from the guidelines.
Commentary
Portions of this document not labeled as
guidelines or commentary also express the policy of
the Commission or provide guidance as to the
interpretation and application of the guidelines.
These are to be construed as commentary and thus
have the force of policy statements.
“[C]ommentary in the Guidelines Manual that
interprets or explains a guideline is authoritative
unless it violates the Constitution or a federal statute,
or is inconsistent with, or a plainly erroneous reading
of, that guideline.” Stinson v. United States, 508 U.S.
36, 38 (1993).

17a
§4B1.1. Career Offender.
(a) A defendant is a career offender if (1) the
defendant was at least eighteen years old at the time
the defendant committed the instant offense of
conviction; (2) the instant offense of conviction is a
felony that is either a crime of violence or a
controlled substance offense; and (3) the defendant
has at least two prior felony convictions of either a
crime of violence or a controlled substance offense.
(b) Except as provided in subsection (c), if the offense
level for a career offender from the table in this
subsection is greater than the offense level otherwise
applicable, the offense level from the table in this
subsection shall apply. A career offender’s criminal
history category in every case under this subsection
shall be Category VI.
OFFENSE STATUTORY MAXIMUM

OFFENSE
LEVEL*
(1) Life
37
(2) 25 years or more
34
(3) 20 years or more, but less than 25
32
years
(4) 15 years or more, but less than 20
29
years
(5) 10 years or more, but less than 15
24
years
(6) 5 years or more, but less than 10
17
years
(7) More than 1 year, but less than 5
12
years
If an adjustment from §3E1.1 (Acceptance of Responsibility)
applies, decrease the offense level by the number of levels
corresponding to that adjustment.

*

18a
(c) If the defendant is convicted of 18 U.S.C. § 924(c)
or § 929(a), and the defendant is determined to be a
career offender under subsection (a), the applicable
guideline range shall be determined as follows:
(1) If the only count of conviction is 18 U.S.C.
§ 924(c) or § 929(a), the applicable guideline
range shall be determined using the table in
subsection (c)(3).
(2) In the case of multiple counts of conviction in
which at least one of the counts is a conviction
other than a conviction for 18 U.S.C. § 924(c) or
§ 929(a), the guideline range shall be the greater
of—
(A) the guideline range that results by adding
the mandatory minimum consecutive penalty
required by the 18 U.S.C. § 924(c) or § 929(a)
count(s) to the minimum and the maximum of
the otherwise applicable guideline range
determined for the count(s) of conviction other
than the 18 U.S.C. § 924(c) or § 929(a)
count(s); and
(B) the guideline range determined using the
table in subsection (c)(3).
(3) CAREER OFFENDER TABLE
§ 924(C) OR § 929(A) OFFENDERS
§ 3E1.1 REDUCTION

No reduction

FOR

18 U.S.C.

GUIDELINE RANGE FOR THE
18 U.S.C. § 924(C) OR
§ 929(A) COUNT(S)
360–life

2-level reduction

292–365

3-level reduction

62–327.

19a
Commentary
Application Notes:
1. Definitions.—”Crime of violence,” “controlled
substance offense,” and “two prior felony
convictions” are defined in §4B1.2.
*

*

*

§4B1.2. Definitions of Terms Used in Section
4B1.1
(a) The term “crime of violence” means any offense
under federal or state law, punishable by
imprisonment for a term exceeding one year, that—
(1) has as an element the use, attempted use, or
threatened use of physical force against the
person of another, or
(2)
is
murder,
voluntary
manslaughter,
kidnapping, aggravated assault, a forcible sex
offense, robbery, arson, extortion, or the use or
unlawful possession of a firearm described in 26
U.S.C. § 5845(a) or explosive material as defined
in 18 U.S.C. § 841(c).
(b) The term “controlled substance offense” means an
offense under federal or state law, punishable by
imprisonment for a term exceeding one year, that
prohibits
the
manufacture,
import,
export,
distribution, or dispensing of a controlled substance
(or a counterfeit substance) or the possession of a
controlled substance (or a counterfeit substance)
with intent to manufacture, import, export,
distribute, or dispense.
(c) The term “two prior felony convictions” means
(1) the defendant committed the instant offense of
conviction subsequent to sustaining at least two

20a
felony convictions of either a crime of violence or a
controlled substance offense (i.e., two felony
convictions of a crime of violence, two felony
convictions of a controlled substance offense, or one
felony conviction of a crime of violence and one
felony conviction of a controlled substance offense),
and (2) the sentences for at least two of the
aforementioned felony convictions are counted
separately under the provisions of §4A1.1(a), (b), or
(c). The date that a defendant sustained a conviction
shall be the date that the guilt of the defendant has
been established, whether by guilty plea, trial, or
plea of nolo contendere.
Commentary
Application Notes:
1. Definitions.—For purposes of this guideline—
“Crime of violence” and “controlled substance
offense” include the offenses of aiding and abetting,
conspiring, and attempting to commit such offenses.
*

*

*

21a
[ENTERED: July 18, 2019]
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKASNAS
FAYETTEVILLE DIVISION
UNITED STATES
OF AMERICA

)
)
)
V.
) NO: 5:18-CR-50084-001
)
MARCUS BROADWAY )
AMENDED SENTENCING MEMORANDUM
1. DELIVERY OF A CONTROLLED SUBSTANCE
AND ATTEMPTED DELIVERY OF A
CONTROLLED SUBSTANCE ARE NOT
“CONTROLLED SUBSTANCE OFFENSES”
FOR
THE
CAREER
OFFENDER
ENHANCEMENT.
Mr. Broadway’s prior controlled substance
offenses do not qualify as predicate offenses for the
Career Offender enhancement. Paragraph 44, 55 and
75 of the PSR classified Mr. Broadway as a Career
Offender due to “two prior felony convictions for a
controlled substance offense.” (Doc.26 and 33). Mr.
Broadway’s prior controlled substance offenses are
found in paragraphs 63 and 69 of the PSR. (Doc. 26,
and Addendum to PSR Doc.33). Paragraph 63 is an
Arkansas conviction for attempted delivery of a
controlled substance and paragraph 69 is an
Arkansas conviction for delivery of cocaine.
In order to qualify as a predicate offense for
career offender purposes, a prior controlled substance
conviction must be for a felony offense under federal
or state law “that prohibits the manufacture, import,

22a
export, distribution, or dispensing of a controlled
substance (or a counterfeit substance) or the
possession of a controlled substance (or a counterfeit
substance) with intent to manufacture, import,
export, distribute, or dispense.” U.S.S.G. § 4B1.2(b).
Emphasis added. According to Application Note 1 in
the Commentary to § 4B1.2, the terms “crime of
violence” and “controlled substance offense” “include
the offenses of aiding and abetting, conspiring, and
attempting to commit such offenses.”
While the Guidelines define a “controlled
substance offense” to include offenses involving the
distribution or dispensing of a controlled substance or
possession of a controlled substance with intent to
distribute or dispense, Mr. Broadway was convicted of
an offense involving an element of “delivery.” While
there is some overlap between these terms, “delivery”
is actually broader than distribution or dispensing.
Under Arkansas law, “deliver” or “delivery” is defined
to mean “the actual, constructive, or attempted
transfer from one (1) person to another of a controlled
substance or counterfeit substance in exchange for
money or anything of value, whether or not there is
an agency relationship . . . .” Ark. Code Ann. § 5-64101(7) (emphasis added).
When determining whether a prior conviction
qualifies as a career offender predicate, the courts
apply a categorical approach under which they
consider the offense generically—i.e., examine it in
terms of “how the law defines the offense and not in
terms of how an individual offender might have
committed it on a particular occasion. United States
v. Thomas, 886 F.3d 1274, 1275 (8th Cir. 2018) (citing
Johnson v. United States, 135 S. Ct. 2551(2015);
United States v. Robinson, 639 F.3d 489, 495 (8th Cir.

23a
2011)). If the statutory definition of the offense of
conviction is broader than the generic defined offense,
it does not qualify as a career offender predicate.
Thus, because Mr. Broadway’s prior convictions for
attempted delivery and delivery are broader than the
definition of “controlled substance offense” found at
§ 4B1.2(b) because both include attempt, neither of
those offenses qualify as a predicate offense.
Therefore, Mr. Broadway is not a career offender.
In Stinson v. United States, 508 U.S. 36 (1993),
the Supreme Court held that the commentary to the
Guidelines should “be treated as an agency’s
interpretation of its own legislative rule.” Id. at 44-45.
Accordingly, “Commentary in the Guidelines Manual
that interprets or explains a guideline is authoritative
unless it violates the Constitution or a federal statute,
or is inconsistent with, or a plainly erroneous reading
of, that guideline.” Id. at 38. If the commentary and
the guideline are inconsistent, “the Sentencing
Reform Act itself commands compliance with the
guideline.” Id. at 43 (citing 18 U.S.C. §§ 3553(a)(4) &
(b)). “[T]he application notes are interpretations of,
not additions to, the Guidelines themselves; an
application note has no independent force.” United
States v. Rollins, 836 F.3d 737, 742 (7th Cir. 2016)
(emphasis in original). This is so because, unlike the
text of the Guidelines, the Sentencing Commission
“does not have to give Congress a chance to review
commentary it publishes along with the Guidelines’
text, nor must the Commission float commentary
through notice and comment.” United States v. Havis,
907 F.3d 439, 443 (6th Cir. 2018). “A comment that
increases the range of conduct that the Guidelines
cover has clearly taken things a step beyond
interpretation.” Id.

24a
The crime of attempting to distribute a
controlled substance is not included in the definition
of “controlled substance offense” that appears in the
Guideline itself. Any crimes not expressly
included in the definition must be treated as
specifically excluded. See United States v.
Winstead, 890 F.3d 1082, 1091 (D.C. Cir. 2018)
(“Section 4B1.2(b) presents a very detailed ‘definition’
of controlled substance offense that clearly excludes
inchoate offenses. Expressio unius est exclusio
alterius.”). As the D.C. Circuit noted in Winstead, the
Supreme Court has made it clear that “[a]s a rule, [a]
definition which declares what a term ‘means’ . . .
excludes any meaning that is not stated . . . .” Id.
(quoting Burgess v. United States, 553 U.S. 122, 130
(2008)
(citation
omitted)).
Accordingly,
the
commentary’s inclusion of the offense of attempt is
inconsistent with the definition provided within the
text of the Guideline. The text of the Guideline must
control, and an offense such as attempt to deliver
illegal drugs cannot qualify as controlled substance
offenses for purposes of applying the career offender
enhancement.
It is anticipated that the Government may cite
United States v. Mendoza-Figueroa, 65 F.3d 691 (8th
Cir. 1995) as foreclosing this argument. However,
that case actually involved a different argument. The
appellant in Mendoza-Figueroa asserted that the
Sentencing Commission had exceeded the statutory
underpinnings of the career offender provisions by
extending the definition of career offender predicates
to include conspiracy offenses. Mr. Broadway is
asserting that the inclusion of the offense of attempt
in the commentary to § 4B1.2 is inconsistent with the
definition of “controlled substance offense” specified

25a
in the text of the Guideline itself. The Court in
Mendoza-Figueroa expressly noted that the appellant
was not making such an argument. See 65 F.3d at 693.
In Mendoza-Figueroa, the Eighth Circuit Court
of Appeals appears to have given Stinson a narrow
reading, stating that “under Stinson, we look only at
whether an interpretive commentary . . . (i) is within
the Commission’s full statutory authority, and (ii) is
a ‘plainly erroneous reading’ of the guideline it
interprets.” 65 F.3d at 693. The Court did not discuss
its obligation to analyze the constitutionality of
guidelines commentary or its obligation to consider
whether the commentary is inconsistent with the text
of the Guideline. Again, the appellant had not argued
these points to the Court. Therefore, the Court’s
statements about the commentary, including its
conclusion that Application Note 1 is not a plainly
erroneous reading of § 4B1.2, were dicta that it is not
now required to follow. See Cent. Va. Cmty. Coll. v.
Katz, 546 U.S. 356, 363 (2006) (“[W]e are not bound to
follow our dicta in a prior case in which the point now
at issue was not fully debated.”).
As the D.C. Circuit made clear in Winstead, the
detailed definition of “controlled substance offense”
presented in § 4B1.2(b) clearly excludes inchoate
offenses. 890 F.3d at 1091. The Winstead court
further noted that “the Commission showed within
§ 4B1.2 itself that it knows how to include attempted
offenses when it intends to do so.” Id. (quoting
U.S.S.G. § 4B1.2’s definition of a “crime of violence”
as an offense that “has as an element the use,
attempted use, or threatened use of physical force . . . .”
Emphasis added). Accordingly, the court noted, the
“venerable canon” expressio unius est exclusio alterius
“applies doubly here,” and the commentary is an

26a
impermissibly inconsistent expansion
definition contained in the guideline. Id.

of

the

In
further
support
of
this
narrow
interpretation of the definition of “controlled
substance offense,” the D.C. Circuit noted the
contrast between § 4B1.2(b)’s definition and the
definition of the term “serious drug offense” in
the Armed Career Criminal Act, 18 U.S.C.
§ 924(e)(2)(A)(ii), which provides that the term
includes “an offense under State law, involving
manufacturing, distributing, or possessing with
intent to manufacture or distribute, a controlled
substance . . . .” See Winstead, 890 F.3d at 1091. The
appellant had emphasized a prior D.C. Circuit
decision that “relied heavily on the presence of the
word ‘involving’ in the statutory definition, which has
‘expansive connotations’”; § 4B1.2, on the other hand,
“includes no such broad language.” Id. (quoting
United States v. Alexander, 331 F.3d 116, 131 (D.C.
Cir. 2003)). There is Eighth Circuit case law
distinguishing the definitions of “serious drug
offense” and “controlled substance offense” on the
same basis. See United States v. Bynum, 669 F.3d 880,
886 (8th Cir. 2012) (“Unlike the sentencing
guidelines, 18 U.S.C. § 924(e)(2)(A)(ii) uses the term
‘involving,’ an expansive term that requires only that
the conviction be ‘related to or connected with’ drug
manufacture, distribution, or possession, as opposed
to including those acts as an element of the offense.”).
If the Sentencing Commission had used the term
“involving” in its definition of “controlled substance
offense,” then Application Note 1 to § 4B1.2 could be
construed as interpretive rather than impermissibly
additive—but the Commission did not, and accordingly,
the Commentary cannot expand the definition.

27a
The appellant in Winstead also called the
court’s attention to the Supreme Court’s decision in
James v. United States, 550 U.S. 192 (2007), in which
the Court held that the Armed Career Criminal Act’s
definition of “violent felony” did not encompass
attempted burglary simply by including the
completed offense of burglary. As Winstead argued,
“‘[a]ttempted distribution’ is not ‘distribution’ any
more than ‘attempted burglary’ is ‘burglary.’”
Winstead, 890 F.3d at 1091. Mr. Broadway similarly
submits that “attempted delivery” is not equivalent to
“distribution.” The text of § 4B1.2(b) itself cannot
properly be interpreted as including attempt offenses.
Mr. Broadway further argues that the rule of
lenity supports the conclusion that he should not be
sentenced as a career offender. In this circuit, “[t]he
rule of lenity applies when an ambiguous section of
the Sentencing Guidelines may be given either of two
plausible readings.” United States v. RodriguezArreola, 313 F.3d 1064, 1067 (8th Cir. 2002). Such an
ambiguity must be resolved in favor of Broadway.
United States v. Parker, 762 F.3d 801, 806 (8th Cir.
2014). Mr. Broadway suggests that the D.C. Circuit’s
reading of § 4B1.2 of the accompanying commentary
is certainly plausible based on accepted notions of
statutory construction. Accordingly, the ambiguity as
to whether attempt crimes are properly included in
§ 4B1.2’s definition of a “controlled substance offense”
must be resolved in his favor. Mr. Broadway was
convicted of delivery of cocaine and attempted
delivery of a controlled substance, offenses
encompassing an element of “delivery,” which is
defined under Arkansas law to include an “attempted
transfer” of a controlled substance, his prior

28a
convictions are not career offender predicates. See
Ark. Code Ann. § 5-64-101(7), U.S.S.G. §4B1.1(b)(3).
2. THE TWO POINT ENHANCEMENT FOR
POSSESSING A FIREARM UNDER USSG
§2D1.1(b)(1) SHOULD NOT APPLY AGAINST
MR. BROADWAY AS THE FIREARM
WAS SIMPLY IN HIS CONSTRUCTIVE
POSSESSION AT THE TIME OF HIS
ARREST AND IN NO WAY CONNECTED TO
THE COMMISSION OF HIS OFFENSES.
Mr. Broadway committed the instant offense,
distribution of methamphetamine, in violation of 21
U.S.C. §841(a)(1) on or about January 15, 2018. At
that time, Mr. Broadway was addicted to and was
using methamphetamine and selling it to keep up his
addiction. Mr. Broadway did not own or have in his
possession a firearm, no firearm was used, brandished,
threatened or even present during any of the
transactions described. Mr. Broadway did not own the
firearm in question, as a simple look at the registration
documents will show that, it was simply present at
the location from which he was arrested some eight
(8) months later. He did in fact claim the firearm at
the time he was arrested for the instant offenses on
September 14, 2018. Mr. Broadway was staying the
night at a location in Fayetteville, Arkansas with a
female who he was involved with at the time, where
the firearm was present. Mr. Broadway did not
employ, threaten to employ, or make any attempt to
use or obtain the firearm during his stay at the location
or his arrest. Upon his arrest, his items were located
in a separate room from the firearm as indicated in
the investigative report. It is not this simple form of
potential constructive possession of a firearm that the
sentencing guidelines seek to punish or deter.

29a
Under “Specific Offense Characteristics,”
U.S.S.G. §2D1.1(b)(1) provides for an increase in the
offense level by two levels if a dangerous weapon was
possessed. Application Note 11(A) provides that the
purpose of the enhancement is due to “increased
danger of violence when drug traffickers possess
weapons.” The Note goes on to say that the
enhancement should be applied if the firearm was
“present” (during the commission of the offense),
“unless it is clearly improbable that the weapon was
connected with the offense.”
Mr. Broadway has a criminal history category
of a “V” without any career offender enhancement
being applied. Of those prior three (3) criminal acts
composing his 9 points, and even the other criminal
history in which he was simply implicated or
investigated, none of those include firearm use or
possession. The facts and prior criminal acts in the
PSR and the Indictment clearly show that Mr.
Broadway is an addict who sells methamphetamine
or cocaine to support his own habit. Of those instances
when Mr. Broadway did deliver a controlled
substance, it has always been methamphetamine or
cocaine and it has never included the use of a firearm
or any weapon for that matter.
It is clear that prior to applying §2D1.1(b)(1),
the firearm must be used in connection with the
offense conduct. United States v. Green, 889 F.2d 187,
189 (8th Cir.1989). A § 2D1.1(b)(1) enhancement
applies if the government proves by a preponderance
of the evidence “that a weapon was present and that
it is not clearly improbable that the weapon was
connected with the criminal activity.” United States v.
Boyce, 564 F.3d 911, 916 (8th Cir.2009) (internal
quotations omitted); see U.S.S.G. § 2D1.1, application

30a
note 11. A connection exists if the weapon was used
“during acts that were ‘part of the same course of
conduct or common scheme or plan as the offense of
conviction.” United States v. Savage, 414 F.3d 964,
966 (8th Cir.2005), citing U.S.S.G. § 1B1.3(a)(2). In
determining relevant conduct, the district court
“should consider the similarity, regularity, and
temporal proximity of the conduct.” United States v.
Geralds, 158 F.3d 977, 979 (8th Cir.1998); see also
United States v. Lange, 592 F.3d 902, 906 (8th
Cir.2010) (“Offenses are part of ‘the same course of
conduct’ when they are part of an ‘ongoing series of
offenses.’ ”), quoting U.S.S.G. § 1B1.3, comment.
(n.9(A)).
In Khang, police made a controlled delivery of
opium to Khang’s residence and found a pistol in the
closet. The Eight Circuit reversed the firearm
enhancement because the government stipulated that
the gun had “no relationship to the crime to which
Khang pled guilty.” United States v. Khang, 904 F.2d
1219, 1220-23 (8th Cir.1990). In Green, officers found
drugs and an unloaded .22 caliber handgun in Green's
house. Green testified that she had never used the
gun. Th Eighth Circuit affirmed the enhancement
because she had the gun “in the same place where she
conducted drug transactions.” United States v. Green,
889 F.2d 187, 189 (8th Cir.1989), United States v.
West, 612 F.3d 993 (8th Cir., 2010).
The application notes explain that the
adjustment should be applied “if the weapon was
present, unless it is clearly improbable that the
weapon was connected with the offense.” USSG
§ 2D1.1, comment. (n.11). To meet this burden, “the
government needs to prove a temporal and spatial
nexus among the weapon, defendant, and drug-

31a
trafficking activity.” United States v. Torres, 409 F.3d
1000, 1003 (8th Cir. 2005), U.S. v. Delgado-Paz, 506
F.3d 652 (8th Cir., 2007). There is no evidence at all
that the gun was even possessed at the time of the
offense conduct or that it has ever been connected to
the offenses herein. In fact, the gun could not have
been possessed at the time of the offenses as Mr.
Broadway was not staying at the 741 Morningside
#45 residence that he was arrested from and was not
in a relationship with LaJessica Salley at the time. A
firearm’s simple presence at the time of an arrest,
some eight (8) months after the commission of the
offense, at a location that the Defendant does not live
and in a town where he does not live, in a residence
where he was not transacting the drug offenses, with
his belongings in a separate room than the firearm is
located, is not proper for an Offense Characteristic
enhancement—clearly allocated to enhance those who
make use of a firearm connected with their offenses.
The circuits and courts have considered many
situations where defendants have argued that the
enhancement is not proper when a firearm is present
and unloaded, whether the defendant knew of its
existence in the context of a conspiracy, whether a
firearm is foreseeable, etc. For a listing of some Eight
Circuit cases, See Green 889 F.2d 187, 188 (8th
Cir.1989). In many of the cases that have been
reviewed, the connection to the offense is easy to find
where the firearm is located with the drugs being
trafficked, in a vehicle or home used for drug
trafficking in the offense conduct, on the person
during the commission of the conduct, possessed by a
co-conspirator during the commission of the offense or
while transacting for preparing for such.

32a
The instant case is distinguishable where here,
the defendant was not arrested at his home, the
firearm was not located in his car, it was not on his
person at the time of his offense, it was not
brandished or even present at any time at all during
the commission of any act involved in the commission
of the offense, etc. The firearm was never in his home,
vehicle or on his person. The firearm was only present
at a time when he was arrested from a place he did
not live, where he was not aware of its presence, it
was not located with his things or on his person or
with the methamphetamine or a controlled
substance—he merely accepted responsibility of the
firearm at the time of his arrest. Even the detectives
did not believe the gun was his, as they inquired of
the home renter if it was hers, and to avoid her being
arrested, Mr. Broadway claimed responsibility. He
does not now deny that. He simply refutes that it is or
was in any way connected to the offense conduct
herein and therefore the two-level enhancement
under U.S.S.G §2D1.1(b)(1) is inappropriate.
Finally, should Mr. Broadway be increased the
two-levels for the firearm, he will no longer be eligible
for the one year reduction in his sentence as the BOP
may use that enhancement to disallow the reduction
due to having a “violent offense.” As such, Mr.
Broadway would be subject to not only the two level
increase in his offense level, but an additional year to
which he would otherwise be eligible to have reduced
upon completion of his drug rehab (SATP) program
which he desperately needs once he is in the BOP’s
possession. This enhancement for the firearm would
ultimately effectually increase his guidelines range
by 4 levels for a crime that did not involve any
violence or threatened violence due to the presence of

33a
a firearm in the residence in which he was arrested.
As such, Mr. Broadway would alternatively ask this
Court to consider this when sentencing Mr. Broadway
and request a sentence below the guidelines range
under §3553 and in the courts discretion.
3. MR. BROADWAY’S CRIMINAL HISTORY
WILL BE OVERREPRESENTED IF HE
IS CONSIDERED A CAREER OFFENDER
UNDER U.S.S.G. §4B1.1(b)(3), AND A
DOWNWARD
DEPARTURE
MAY
BE
WARRANTED UNDER U.S.S.G. §4A1.3(b)(1)
AND CONSIDERATION UNDER §3553
FACTORS.
Mr. Broadway’s prior criminal history contains
a sentence at the age of 17 years old for an offense of
“Attempted Delivery of a Controlled Substance.” (Doc.
26 at Para. 63). For that offense Mr. Broadway was
convicted as an adult, allocating him three (3)
criminal history points. The PSR recommends an
enhancement to career offender using that offense
from nearly twelve (12) years prior as one of the
predicate offenses. Mr. Broadway has in addition two
other offenses of possession and delivery counting for
6 points cumulative. Mr. Broadway’s criminal history
was also increased two points due to being under the
parole and probation for that offense from 2007 at the
time of the commission of the instant offense. As such,
Mr. Broadway’s criminal history category would go to
a level V with his total of 11 points after the
enhancement, and a final level VI with the career
offender status. As such, Mr. Broadway may be
considered for a departure where his criminal history
over-represents the seriousness of his criminal past.
All of Mr. Broadway’s prior criminal history points
are due to drug offenses which stem from his

34a
addiction and his mental disabilities as well as his
lack of familial support and education where his
family upbringing played a part in his addiction.
Although these factors may not be considered in
certain requests for a departure, they should be
considered in determining a sentence generally and
specifically where the criminal history category and
past crimes are influenced by these factors. With the
proper, continued, and extensive drug rehab and
mental health care, support and education that Mr.
Broadway has always needed, his likelihood of reoffending is drastically decreased, requiring a lighter
sentence than may otherwise be warranted.
CONCLUSION
Mr. Broadway respectfully employs this Court
to rely upon the guidelines, caselaw and rules cited
herein in determining that the predicate offenses of
Mr. Broadway to not qualify to enhance him to a
career offender, that the firearm located at the
residence from which Mr. Broadway was arrested was
not connected to or possessed in commission with the
offense conduct for which he is convicted, and that Mr.
Broadway’s criminal history is over-stated justifying
a reduced sentence or guidelines calculation.
RESPECTFULLY SUBMITTED,
Marcus Broadway, Defendant
BY: /s/ Wendy R. Howerton
Wendy R. Howerton
Ark. Bar No. 05244
Howerton Law Firm
3900 N. Front St., Suite 101
Fayetteville, AR 72703
(479) 587-9300 (p)
(479)587-9339 (F)

35a
CERTIFICATE OF SERVICE
I, Wendy R. Howerton, hereby certify that on
this 16th day of July 2019, I personally electronically
transmitted the foregoing document to the following
by emailing a copy of such to:
David Harris
U.S. Attorney’s Office
Western District of Arkansas
414 Parker Avenue
Fort Smith, AR 72901
479-783-5125
david.a.harris@usdoj.gov
Stephanie Long,
U.S. Probation Officer
BY: /s/ Wendy R. Howerton

